<html>
<title> - SIX YEARS LATER: ASSESSING LONG-TERM THREATS, RISKS AND THE U.S. STRATEGY FOR SECURITY IN A POST-9/11 WORLD</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
   SIX YEARS LATER: ASSESSING LONG-TERM THREATS, RISKS AND THE U.S. 
               STRATEGY FOR SECURITY IN A POST-9/11 WORLD

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY
                          AND FOREIGN AFFAIRS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 10, 2007

                               __________

                           Serial No. 110-126

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov


                     U.S. GOVERNMENT PRINTING OFFICE
47-590 PDF                 WASHINGTON DC:  2009
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
TOM LANTOS, California               TOM DAVIS, Virginia
EDOLPHUS TOWNS, New York             DAN BURTON, Indiana
PAUL E. KANJORSKI, Pennsylvania      CHRISTOPHER SHAYS, Connecticut
CAROLYN B. MALONEY, New York         JOHN M. McHUGH, New York
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
DANNY K. DAVIS, Illinois             TODD RUSSELL PLATTS, Pennsylvania
JOHN F. TIERNEY, Massachusetts       CHRIS CANNON, Utah
WM. LACY CLAY, Missouri              JOHN J. DUNCAN, Jr., Tennessee
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
STEPHEN F. LYNCH, Massachusetts      DARRELL E. ISSA, California
BRIAN HIGGINS, New York              KENNY MARCHANT, Texas
JOHN A. YARMUTH, Kentucky            LYNN A. WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   VIRGINIA FOXX, North Carolina
    Columbia                         BRIAN P. BILBRAY, California
BETTY McCOLLUM, Minnesota            BILL SALI, Idaho
JIM COOPER, Tennessee                JIM JORDAN, Ohio
CHRIS VAN HOLLEN, Maryland
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
                  David Marin, Minority Staff Director

         Subcommittee on National Security and Foreign Affairs

                JOHN F. TIERNEY, Massachusetts, Chairman
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
STEPHEN F. LYNCH, Massachusetts      DAN BURTON, Indiana
BRIAN HIGGINS, New York              JOHN M. McHUGH, New York
                                     TODD RUSSELL PLATTS, Pennsylvania
                       Dave Turk, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 10, 2007.................................     1
Statement of:
    Isaacson, Walter, president and CEO, the Aspen Institute; 
      Robert J. Lieber, Ph.D., professor and international 
      relations field Chair, Georgetown University; and Jessica 
      T. Mathews, president, Carnegie Endowment for International 
      Peace......................................................    15
        Isaacson, Walter.........................................    15
        Lieber, Robert J.........................................    19
        Mathews, Jessica T.......................................    38
Letters, statements, etc., submitted for the record by:
    Lieber, Robert J., Ph.D., professor and international 
      relations field Chair, Georgetown University, prepared 
      statement of...............................................    23
    Mathews, Jessica T., president, Carnegie Endowment for 
      International Peace, prepared statement of.................    42
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     8
    Tierney, Hon. John F., a Representative in Congress from the 
      State of Massachusetts, prepared statement of..............     3


   SIX YEARS LATER: ASSESSING LONG-TERM THREATS, RISKS AND THE U.S. 
               STRATEGY FOR SECURITY IN A POST-9/11 WORLD

                              ----------                              


                      WEDNESDAY, OCTOBER 10, 2007

                  House of Representatives,
     Subcommittee on National Security and Foreign 
                                           Affairs,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2154, Rayburn House Office Building, Hon. John F. Tierney 
(chairman of the subcommittee) presiding.
    Present: Representatives Tierney, Higgins, Yarmuth, Braley, 
McCollum, Cooper, Van Hollen, Hodes, Welch, Shays, Platts, 
Duncan, Turner, and Foxx.
    Staff present: Dave Turk, staff director; Andrew Su and 
Andy Wright, professional staff members; Davis Hake, clerk; Dan 
Hamilton, fellow; A. Brooke Bennett, minority counsel; 
Christopher Bright, minority professional staff member; Nick 
Palarino, minority senior investigator and policy advisor; and 
Benjamin Chance, minority clerk.
    Mr. Tierney. Good morning. A quorum now being present, the 
Subcommittee on National Security and Foreign Affairs will 
conduct its hearing entitled, ``Six Years Later: Assessing 
Long-Term Threats, Risks and the U.S. Strategy for Security in 
a Post-9/11 World.''
    The meeting will come to order and I ask unanimous consent 
that only the chairman and ranking members of the subcommittee 
be allowed to make opening statements. Without objection, so 
ordered.
    I ask unanimous consent that the hearing record be kept 
open for 5 business days so that all members of the 
subcommittee be allowed to submit a written statement for the 
record. Again, without objection, so ordered.
    I am going to make a brief opening statement. I am going to 
submit my remarks for the record and ask unanimous consent that 
they be included in the record. Without objection, that is so 
ordered.
    This Subcommittee on National Security and Foreign Affairs 
hearing is an attempt to have a series of meetings and 
witnesses, as esteemed as those before us today, who can come 
in and discuss our strategy going forward.
    Even with the amazing amount of money and energy that has 
been spent--and lives lost--on military engagements, homeland 
security, and intelligence since 9/11, there remains somewhat 
of an inescapable sense that our national security policy may 
be adrift.
    We have rising extremism and gathering terrorist storm 
clouds; there is a question about whether or not al Qaida will 
have a resurgence in Pakistan; there are innumerable anti-
American attitudes. And more than 6 years after September 11th 
we still really don't have a bipartisan consensus on a 
comprehensive long-term strategy to combat the grave threats 
that exist or to put those threats in context, to assess the 
priorities and move forward.
    In the words of one of our panelists today, we have yet to 
act with the ``burst of creativity'' that was the trademark of 
the United States at the beginning of the cold war.
    We have studies that have been commissioned, including the 
work of the 9/11 Commission; analyses have been offered; 
strategies have been published. The hard work of formulating 
and forging and implementing a bipartisan national security 
strategy, however, still remains lacking. So many people feel 
that we haven't even yet had a robust bipartisan dialog about 
that and so, in part, that is what these hearings are about, an 
attempt to start that dialog and get people's attention 
focused.
    We encourage all the members on the panel, those present 
and not present yet today, to share their own ideas for future 
witnesses so that we can have a robust discussion. We want to 
hear from top experts, people with real-world experiences and 
innovative, creative ideas. I think our three witnesses today 
hit those on all points and I think we are going to have a 
robust discussion.
    And there are a number of questions. I won't enumerate all 
of them right now, but I think in the introductory memo, for 
members of the panel here, that we had sent a number of those 
out that we will, no doubt, be exploring with our witnesses 
here today. We have to determine what is the process for 
evaluating our performance as we move forward; we have to talk 
about how our military may be stressed beyond the point that it 
should; and we should talk a little bit today, hopefully, about 
the attitude of the rest of the world toward the United States.
    The Pew poll, in August 2007, found 68 percent of 
Pakistanis hold an unfavorable view of the United States; 76 
percent of Moroccans have an unfavorable view; 93 percent of 
Egyptians share that unfavorable view; 64 percent of the people 
in Turkey, a key NATO ally, believe that the United States 
poses their greatest foreign policy threat, and a whopping 83 
percent have an unfavorable opinion of the United States, up 29 
percent since 2002.
    Polls obviously aren't the end-all and be-all of how our 
success should be defined, but it certainly gives us some 
indication of what is going on with our attempts to win hearts 
and minds.
    So we have serious challenges. We have to use all of the 
tools in our tool kit, as the 9/11 Commission said. I look 
forward to the comments that our panel is going to make here 
today, and I invite Mr. Shays to make his opening remarks 
before we do hear from the witnesses.
    [The prepared statement of Hon. John F. Tierney follows:]

    [GRAPHIC] [TIFF OMITTED] T7590.001
    
    [GRAPHIC] [TIFF OMITTED] T7590.002
    
    [GRAPHIC] [TIFF OMITTED] T7590.003
    
    Mr. Shays. Thank you, Mr. Chairman. Mr. Chairman, I have 
just tremendous respect for you and the efforts you are making 
on this committee, and I just want to thank you, first, for 
conducting this hearing. Also tremendous respect for all three 
of our witnesses and the institutions they represent.
    Having bought about 40 copies of Benjamin Franklin: An 
American Life and given it to a number of my friends, I just 
wish I had brought my own copy, Walter, to have you sign it, 
but I will get back to you on that one.
    Mr. Isaacson. Thank you, sir.
    Mr. Shays. A great book that gives perspective on a lot of 
things. I am stunned by the fact that Benjamin Franklin's own 
son didn't see the light and was a Tory. It was troubled times.
    Mr. Isaacson. Well, we parents understand those thing 
sometimes.
    Mr. Shays. Well, the fact that you can understand those 
times then tells me you understand these times now.
    Mr. Isaacson. Thank you, sir.
    Mr. Shays. Almost 2 years ago, before the attacks of 
September 11, 2001, the advisory penal to assess domestic 
response capabilities for terrorism involving weapons of mass 
destruction, headed by former Governor Gilmore, concluded the 
United States lacked a coherent functional national strategy to 
guide disparate counter-terrorism efforts. In testimony before 
this subcommittee in March 2001, the Commission's vice 
chairman, retired Lieutenant General James Clapper, said, ``A 
truly comprehensive national strategy will contain a high level 
statement of national objectives coupled logically to a 
statement of the means used to achieve these objectives.''
    During that same period, the U.S. Commission on National 
Security Strategy, led by former Senators Hart and Rudman, and 
the National Commission on Terrorism, headed by former 
Ambassador Bremer, also concluded that the executive branch 
required a comprehensive national strategy to counter 
terrorism.
    Mr. Tierney, I really appreciate your holding this hearing 
and continuing the examination of U.S. national strategies 
begun by this subcommittee before September 11th.
    In January 2001, the Bush administration inherited a loose 
collection of Presidential directives and law enforcement 
planning documents that were used as a strategic framework for 
a national strategy against terrorism, but that fragile 
construct collapsed with the World Trade Center on September 
11th. The brutal nature of the terrorist threat shattered naive 
assumptions terrorists would be deterred by geographic, 
political, or moral borders. A new strategic paradigm was 
needed. Containment, deterrent, reaction, and mutually assured 
destruction no longer served to protect the fundamental 
security interests of the American people. In fact, it would be 
absurd to think it could.
    In September 2002, the Bush administration National 
Security Strategy of the United States of America was 
published, taking into account the events of September 11th. 
This strategy was updated in March 2006 and is a fundamental 
statement of broad administration policy, accompanying many 
goals, including the need to counter terrorism.
    Along with President Bush's first national security 
strategy came a proliferation of individual strategies to 
counter terrorism. In March 2003, witnesses told this 
subcommittee the Bush administration had developed no less than 
eight high level mission statements on national security: 
military, strategic, global terrorism, homeland security, 
weapons of mass destruction, money laundering, cyber security, 
and critical infrastructure. So by early 2003, what we had was 
an overarching strategy and a proliferation of individual 
strategies to counter terrorism.
    We held another hearing in March 2004, continuing to 
examine these national strategies. In the realm of national 
security, a large number of counter-terrorism strategies does 
not necessarily mean we are any safer. Only if these strategies 
guide us toward clearly articulated goals will they help secure 
our liberty and prosperity against the threats of new and 
dangerous eras.
    So we begin our hearing today using, as a basis, previous 
examinations of national strategies and asking of the national 
security strategy of the United States of America has the 
fundamental characteristics of a coherent strategic framework, 
one that clearly states a purpose, assesses risk, sets goals, 
defines needed resources, assigns responsibilities, and 
integrates implementation. Once this examination is 
accomplished, we should evaluate the success of all our current 
counter-terrorism strategies. If the answer to some or all of 
these questions is no, then we need to change our approach in 
countering terrorism.
    Again, I would like to thank our witnesses and just say 
that I think the biggest problem is not only the lack of 
strategies that are clearly understood; there is no debate in 
Congress, other than what you are doing here, no debate in the 
public. We look at whether some performers should have control 
of her child and not have her children taken away; whether Anna 
Nicole Smith, who was the father of this child. We get into the 
most absurd debates, at a time when we need to have meaningful 
dialog. So thank you, Mr. Chairman.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC] [TIFF OMITTED] T7590.004
    
    [GRAPHIC] [TIFF OMITTED] T7590.005
    
    [GRAPHIC] [TIFF OMITTED] T7590.006
    
    [GRAPHIC] [TIFF OMITTED] T7590.007
    
    [GRAPHIC] [TIFF OMITTED] T7590.008
    
    [GRAPHIC] [TIFF OMITTED] T7590.009
    
    [GRAPHIC] [TIFF OMITTED] T7590.010
    
    Mr. Tierney. Thank you, Mr. Shays.
    We are now going to receive testimony from our excellent 
panel of witnesses. Let me begin by introducing our panel 
briefly, because if I went into everybody's credentials, we 
would be here for the entire hearing.
    Walter Isaacson, noted historian, former head of CNN, 
former editor of Time Magazine, and current president and chief 
executive officer of the Aspen Institute. A very abbreviated 
introduction.
    Professor Robert Lieber, former State Department 
consultant, author of 14 books on foreign policy--even reading 
all the book titles would probably keep us a while--currently 
professor of----
    Mr. Lieber. I have time.
    Mr. Tierney. You have time? [Laughter.]
    Currently, professor and international relations field 
Chair at Georgetown University.
    Jessica Tuckman Mathews, former Under Secretary of State 
for Global Affairs, former journalist and columnist, current 
president of the Carnegie Endowment for International Peace. 
Again, I could go on and on.
    Welcome to all of you and thank you. It is the policy of 
this subcommittee to swear you in before you testify, so, just 
to keep with policy, I will ask you all to stand and raise your 
right hands.
    Mr. Shays. The only one we didn't swear in in 20 years was 
Senator Byrd. I chickened out. [Laughter.]
    [Witnesses sworn.]
    Mr. Tierney. Thank you. The witnesses have all answered in 
the affirmative.
    Your full written statements will be put in the hearing 
record. Dr. Lieber, I say that for yours, because it took me 
the entire half hour. It was very long and very comprehensive 
and good on that. So that written statement will be put on the 
record.
    You have 5 minutes. Obviously, we are going to be as 
liberal with the clock as we can. And I may mention now, I 
think we will be liberal as people are asking questions, also. 
If there is no objection, we will go to 10-minute questioning 
intervals. And except some interventions. If people have a 
question they want to ask on point of something that is going 
on, we are going to open that up a little bit and have a 
discussion here if we can.
    So, Mr. Isaacson, please.

  STATEMENTS OF WALTER ISAACSON, PRESIDENT AND CEO, THE ASPEN 
INSTITUTE; ROBERT J. LIEBER, PH.D., PROFESSOR AND INTERNATIONAL 
 RELATIONS FIELD CHAIR, GEORGETOWN UNIVERSITY; AND JESSICA T. 
 MATHEWS, PRESIDENT, CARNEGIE ENDOWMENT FOR INTERNATIONAL PEACE

                  STATEMENT OF WALTER ISAACSON

    Mr. Isaacson. Thank you, Mr. Chairman. Thank you for doing 
this, Chairman Tierney. It is an honor to be here, and I want 
to thank Ranking Member Shays for those kind words. Also, last 
time I testified before Congressman Shays, it was on New 
Orleans recovery, and you were very open-minded. I appreciate 
that as well.
    I think that is it particularly relevant that it is this 
committee, because it is one of the few committees with a 
ranking member and a chairman who I can see can work together 
in a bipartisan way for important national security and 
strategic concerns.
    I also want to thank the staff. I spent a lot of time with 
the staff of this committee and they were deeply involved in 
preparation for this, and I think I learned more from the staff 
than they learned from me, which is why I was surprised to be 
invited on this panel.
    I am a little intimidated by the other two people on the 
panel who are great foreign policy intellectuals, and 
particularly intimidated by Congressman Cooper, who, for those 
of you who don't know, was at graduate school with me studying 
international relations, and did much better than I did. And I 
think he is here because the last time I felt this way was when 
I saw somebody about to give me an oral exam, and they were 
sitting up on a podium like that. So I fear that the 
Congressman from Tennessee has been waiting 30 years to give me 
an oral exam on what we studied together.
    About 60 years ago, the world was faced with a whole new 
global threat, the threat of the expansion of Soviet communism. 
And it came upon us rather suddenly. We had just been allies 
with the Soviet Union in the greatest military victory over 
fascism and the new president of the United States, Harry 
Truman, was hit with the fact that, at Yalta and then at 
Potsdam, and then in the Polish elections, we were faced with 
another threat that was global in nature and a threat to our 
very existence and our way of life. And he gathered a group of 
bipartisan people, called the Wise Men, who worked together 
with Congress, with Republicans such as Vandenberg and 
Democrats, in order to create a new national security strategy. 
That is what I see Chairman Tierney and Congressman Shays and 
others using this committee to do. It is particularly important 
because, in this day and age, we are not doing that burst of 
creativity that we saw in 1947 to 1949.
    They were faced with a global threat that came upon them 
rather suddenly, and what they did was create institutions, 
that were totally thought up and totally brilliant, to counter 
the threat that they saw. For example, they created a military 
alliance, NATO, a brilliant strategy of like-minded nations who 
were going to contain the threat that they all saw and 
perceived alike. That NATO military alliance worked very well, 
but it was part of a context, and that context is what you are 
trying to do today, which is a clear definition of the threat 
and, as Congressman Shays said, figure out the purpose, the 
risks, the goals, the strategies, the tactics, the commitments, 
and the resources that will be needed for that.
    When they did that, they started with the intellectual 
underpinnings, people like George Kennan, the Jessica Tuckman 
Mathews of his day. We were able to define why we were in a 
struggle and who that struggle was against. It was just as 
controversial as now, trying to figure out who the enemy was. 
Was it Russia, an expansionist 600 year old Duchy of Muscovy 
that had become a Russian empire? Was it communism as an 
ideology? Was it the spread of Soviet communism that was the 
threat? So with the help of George Kennan and others, they 
defined the spread of Soviet-backed communism as a clear nature 
of that threat.
    They then went about forming a doctrine for how to counter 
that threat, known now as the Truman Doctrine. The Truman 
Doctrine was something that was accepted in a bipartisan way 
by, I think, nine presidents, starting with Harry Truman until 
the cold war ended with Ronald Reagan and the first President 
George Bush. They also came to a very clear document, NSC 68, 
which we every now and then ought to go back and look at, which 
was a National Security Council document that explained, as 
Congressman Shays did, exactly the type of military resources, 
domestic, the risks, the strategies, the tactics you would have 
to use.
    Then they created new institutions like the Marshall Plan, 
done in such a bipartisan way that when it was invented and 
being kicked around, Harry Truman thought it was a great idea 
not to call it the Truman Plan, but to call it the Marshall 
Plan because it would get bipartisan support, and he said to 
Robert Lovett, his Under Secretary of State, it means those 
Republicans won't be able to throw it up against our face, at 
which point Under Secretary Lovett said, you forget, Mr. 
President, I am a Republican. And that was in the days when 
Republicans and Democrats could work together and form a policy 
and forget which party each one was. We see that on this 
committee sometimes with the chairman and the ranking member, 
but we don't see that in this Hill as often as we should.
    They created financial institutions because they knew we 
were trying to win a struggle that was not just a military 
struggle of who could have enough troops at the Folger Gap to 
prevent an invasion of Europe, or enough missiles. They knew we 
had to have an economic in which our side would succeed. So 
besides the Marshall Plan there was The World Bank, the XM 
Bank, and other institutions that helped us win a struggle not 
just for a military might, but for the pocketbooks and 
loyalties of a new economy.
    And it was a combination of realism and idealism. If you 
ask was the Marshall Plan part of a realist tradition or an 
idealist tradition, the answer is yes. It served both our 
national interests and our national values.
    Finally, they realized, too, that we had to win the 
struggle for people's minds. They reinvigorated Voice of 
America; they created Radio Free Europe; they created all sorts 
of institutions that were totally creative in order that we 
would win this struggle and convince people that our values 
were shared by them.
    We have now been hit, on September 11th, with an entire new 
global struggle. You can debate whether it is as much of a 
threat as the threat of the spread of Soviet communism, or more 
of a threat or less, but it is a new type of threat, and we are 
using the same old institutions, instead of being creative, in 
order to try to counter it. As much as we may love NATO, it was 
mainly designed to stop things in the Folger Gap, not designed 
to win a struggle in the Middle East and other places against 
the spread of global terrorism.
    In fact, we haven't done what, at the very beginning, we 
should do, and it has been longer since September 11, 2001 than 
it was between Stalin's decision to cancel the Polish elections 
and the creation of all the Wise Men's bipartisan policies in 
the late 1940's. We still haven't even defined the threat very 
well. You get disagreement; you don't have bipartisan consensus 
on whether it is radical Islam, whether it is the Islamic Arab 
world, whether it is terrorism in general that is our threat. 
It would be nice to define that. It would be nice to define a 
set of institutions with which we balance commitments and 
resources and say here is what we need to fight that threat.
    What we also should do is try to be just as creative. If we 
went down a checklist, we could look at, OK, they had the 
Marshall Plan. What economic programs do we have to win among 
the moderate Arab world so that we can win the struggle against 
Islamic fanaticism, as we are struggling to do?
    I am involved with the State Department now on U.S.-
Palestinian public-private partnerships and investments. I 
think those are good ideas, but they are no where near the 
level of the Marshall Plan, the World Bank and the XM Bank that 
we try to do. I commend the State Department and I look forward 
to working more on those. I commend the Congress for funding 
those, but it is not nearly at the level that the people of a 
previous generation did when they were faced with such a 
struggle.
    And I could go on, but there is only one more point I would 
make in terms of what they did. In terms of just winning the 
value struggle. We are sitting here still wondering who is 
going to run Voice of America and Radio Free Europe. We should 
be enlisting the people who created Facebook and Google. We 
should be enlisting people who understand social networking. We 
should be creating a counterpart to Voice of America that will 
win the hearts and minds of people around the world.
    In 1989, when I was covering the collapse of Soviet 
communism in Eastern Europe, I remember being in Bratislava, in 
one of the hotel rooms they put foreign journalists, and it was 
one of the few hotel rooms that had a satellite dish, which is 
why they put us there, so we could see the outside world. I was 
asked by one of the people working in the hotel could they use 
my hotel room because the students like to come watch music 
videos in the afternoon. I said, sure, that would be fine. I 
came back early to meet some of the students. They weren't 
watching music videos in my room; they were watching CNN and 
what was happening in the Gdansk Shipyards and what was 
happening in the rest of Eastern Europe. And I realized that 
the ability to have a free flow of information was going to be 
the strongest asset we had in that global struggle.
    Likewise, when I went to China a few years ago and was in 
Kashgar, a tiny village, I walked into a coffee shop and saw 
four kids behind a computer screen. I asked what they were 
doing. They spoke Weegar [phonetically]; we were talking 
through the translator. They said they were on the Internet. I 
said, well, let me try something. I typed in CNN.com and it was 
blocked. I typed in Time.com, it said access denied. One of the 
kids nudged me aside and said, type something in and, boom, 
there is CNN and there is Time. I said, what did you do? He 
said, well, we know how to go through proxy servers in Hong 
Kong that the centers are clueless about.
    We should be making use, as our previous generation did, of 
the new information technologies to win the struggle we have.
    When you go back to Benjamin Franklin, somebody I once 
wrote about, Benjamin Franklin realized that he too faced a 
great global struggle that he was dealing with in 1776, right 
after they wrote the Declaration of Independence and he was 
sent to Paris to get France in on our side in the war. We had 
to enlist other countries back then, as we do now. And even 
back then France was a bit of a handful, so they send old Dr. 
Franklin over there and he carried with him the document they 
had just written. He and John Adams and Thomas Jefferson were 
put on the subcommittee to write the document.
    With all due respect, it may be the last time Congress 
created an awesome subcommittee like that. But Jefferson, 
Adams, and Franklin wrote a declaration explaining why we were 
in a war of independence, and it was pretty clear what they 
were doing from the very first sentence, because they said a 
decent respect for the opinions of mankind is why we are 
writing this document; we have to bring them in to our side.
    And they did a beautiful job writing that document, even 
and balancing the values we were fighting for, the famous 
second paragraph that says ``We hold these truths.'' Jefferson 
writes the first document you can find in the Library of 
Congress, the first draft said ``We hold these truths to be 
sacred.'' You see Franklin's printer's pen crossing it out and 
saying ``we hold these truths to be self-evident.'' And they 
are trying to explain that it is a new type of value that comes 
from the consent of the governed and rationality and reason; we 
are not enshrining the dictates of any particular religion in 
our new values.
    But the sentence goes on, they are ``endowed with certain 
inalienable rights.'' And there is John Adams' handwriting, 
``endowed by their creator with certain inalienable rights.'' 
So even in that sentence they are doing a strategy statement 
and a value statement in which they are balancing very 
carefully the role of divine providence, the role of values and 
religion, the role of a new type of nation that depends on the 
consent of the governed. And what Benjamin Franklin does when 
he gets to Paris, besides writing memos to Virjean on the 
balance of power and why the Bourbon-pact nations have to come 
in on our side, is he builds a printing press and he prints 
thousands of copies of that document, which were a public 
diplomacy document, a propaganda document, saying here is the 
strategy, here are the values, here is what we are fighting 
for.
    To me, that is what we haven't yet done in this new global 
struggle and what I hope this committee will, with these 
hearings, further that process. Thank you, Mr. Chairman.
    Mr. Tierney. If we have any document, we are going to call 
it the Shays document, so people won't throw it back in our 
face. Thank you. [Laughter.]
    And you can tell, Doctor, we are going to be liberal with 
the clock, because every minute of that was worth it, and I 
suspect the same will be true with the next two witnesses. 
Doctor, please.

                 STATEMENT OF ROBERT J. LIEBER

    Mr. Lieber. Chairman Tierney, Ranking Member Shays, members 
of the subcommittee, and staff, thank you very much for 
providing me with the opportunity to present my views on the 
crucial subject of long-term threats and risks and U.S. 
security for the post-9/11 world. You have my testimony, so I 
am going to concentrate in broad brush terms on what I think 
are the long-term, even existential, realities of the world in 
which the United States finds itself not just now, but 
certainly for the next administration and whichever party 
occupies the White House.
    There are three, I think, realities in the post-9/11 world, 
and realities which will continue for the foreseeable future. 
The first of those, and the most important, I think, is that we 
face a lethal and enduring threat, which is not going to go 
away and is not chiefly a response to this or that policy or 
diplomatic action or commitment.
    The threat consists, I think, of three distinct but related 
elements. The first of these is radical Islamist jihadism as an 
ideology and in its organized forms; the second component is 
mass casualty terrorism; and the third component is the long-
term danger of chemical, biological, radiological, or nuclear 
weapons being used potentially by non-state actors, possibly 
aided by states or even by states themselves.
    I would note that the 9/11 Commission itself, which was 
unanimous and bipartisan in its conclusion in 2004, stated that 
``The catastrophic threat at this moment in history is the 
threat posed by Islamist terrorism, especially al Qaida, the al 
Qaida network, its affiliates, and its ideology.'' I would also 
note that leading experts across party lines have, for the most 
part, also observed and warned about this.
    I could cite numerous studies, but the most recent is in 
the current issue of Foreign Policy, in which more than 100 
leading terrorism proliferation and foreign policy experts 
surveyed by the magazine said, of those 100 experts, more than 
80 percent expect a 9/11-scale attack on the United States 
within the next decade. You can agree or disagree about that 
educated guess, but it suggests that serious people across 
party lines draw the same conclusion to which I have pointed.
    I also want to indicate that while some see these threats 
as a result of our policies--good, bad, or otherwise--in Iraq 
or vis-a-vis Middle Eastern regimes or vis-a-vis the Arab-
Israeli conflict, I think those assessments miss the deep 
causes of threat. In my judgment, the threat ultimately is a 
consequence of the failure of major parts of the Arab Muslim 
world to cope with the challenges of globalization and 
modernity. This is more acute in recent decades, but it is a 
very long-term problem and will take a very long time to sort 
out. There is also, in longer range terms, looking backward, 
the sense of humiliation over four centuries of decline for 
many of those areas of the world. And I think the consequence 
is that those who are particularly obsessed or upset with it 
express either individual or societal rage, which again takes 
its form in radical jihadism, in the use of terrorism, and, I 
would add, in efforts to inflict mass casualty terrorism.
    So my first broad point is that we live and are going to 
live in an environment of lethal and enduring threat, and this 
needs to be a priority as we weigh various kinds of tradeoffs 
and policies.
    Second, despite the importance of cooperation with our 
allies, with international institutions like the United 
Nations, with the European Union,--and I would add that 
collaboration is highly desirable and necessary--many of these 
institutions remain ineffective in confronting the most urgent 
and deadly threats. In shorthand terms, I would throw out words 
like Bosnia, Rwanda, and Darfur as illustrations of that 
reality.
    Third, the United States possesses unique power and 
capacity, even now. Despite the costs and difficulties of Iraq 
and Afghanistan, of multiple challenges, of proliferation, rise 
of regional powers, the growing strength of authoritarian 
capitalist powers in Russia and China, and our bitter 
bipartisan or political dis-census in the country; nonetheless, 
the United States continues to possess remarkable strength and, 
if you like, primacy. It doesn't mean we can do everything, but 
it means that the United States has a unique role to play.
    In the post-9/11 world, an American grand strategy has 
emerged; sometimes in official documents, sometimes willy-nilly 
. In broad brush terms, that grand strategy embodies roughly 
the following four elements, as, for instance, noted by the 
administration in its national security documents: one, the 
maintenance of primary; two, the ability to use preemption, if 
necessary, in the face of imminent threats; third, multilateral 
cooperation--I would describe that as as much cooperation with 
others as possible, but as much unilateral action as 
unavoidable or necessary--and, finally, support for democracies 
and democratization.
    Now, let me note that citing those four broad points does 
not necessarily give you a good specific answer to a policy 
question. Implementation will inevitably be controversial, 
requiring difficult judgments in the midst of incomplete 
information and uncertainty. In the judgment of history, inept 
or imprudent choices can be harsh. But I would also disagree 
with descriptions that suggest a radical departure from past 
American history. In response to attacks on the United States 
and looking back at Harry Truman and the Truman Doctrine, which 
Mr. Isaacson has rightly referred to, and looking back at the 
Kennedy inaugural of 1961, at Reagan's State of the Union in 
1985, I would note there is a bipartisan legacy on which a good 
deal of contemporary grand strategy builds, even if there is 
ample debate about implementation, policy decisions, and even 
prudence.
    There are problems, obviously. The United States has the 
capacity to act and lead, but it requires all kinds of things 
to be effective over the long term: an appropriate fiscal and 
monetary environment; social cohesion and public support; 
policy management and coordination of the sort that this 
committee is seeking to focus on; skilled diplomacy. I come 
from Georgetown University, and there is a saying about 
diplomacy, that skilled diplomacy is the ability to tell 
someone to go to hell in such a way that he looks forward to 
the trip. I would submit that our diplomacy has not always had 
that exquisite degree of skill and finesse.
    Cooperation with others to the maximum extent possible, but 
not beyond that extent; and we also encounter certain deficits 
now. Our military is stretched, our public diplomacy is a 
disaster, a legacy both of the fateful Clinton era decision to 
do away with USIA and the inability of the current 
administration to really turn that around. We need a new USIA 
or its equivalent. I think that is an urgent matter.
    We also have an utterly dysfunctional visa system which 
tends to discourage or shut out the kinds of people with the 
skills, commitment, and backgrounds that we need, while willy-
nilly tending to give, sometimes by the back door, avenues for 
those who are less appropriate.
    Importantly, we still lack an urgently needed energy 
policy. Our energy policy over a couple of decades has been 
disastrous. It represents a threat to our economy and our 
national security in terms of the necessity of ratcheting down 
our dependence on oil. It can't be completely eliminated, but 
our current policy strengthens our adversaries and plenty of 
others.
    We can cope. America has, despite obstacles, in the past, 
overcome huge challenges: World War II, creating the Marshall 
Plan, the Apollo mission, and so on, not least because of our 
attributes of flexibility and adaptability.
    Let me conclude. The United States faces lethal and 
persistent threats. Neither the United Nations nor any other 
international organization is capable of effective action 
without important use of state power. Multilateral responses to 
common threats, for example, proliferation, can be effective 
and necessary, but they are hard to achieve. The U.S. role and 
U.S. power are unique. The crux is to use that power skillfully 
and prudently, but not to assume there is a real alternative to 
it. Whoever takes the oath of office on January 20, 2009, will 
need to adopt a national security strategy that incorporates 
key elements of the post-9/11 foreign policy doctrine. 
America's own national security and the maintenance of a decent 
international order depend on it.
    Thank you for listening.
    [The prepared statement of Mr. Lieber follows:]

    [GRAPHIC] [TIFF OMITTED] T7590.011
    
    [GRAPHIC] [TIFF OMITTED] T7590.012
    
    [GRAPHIC] [TIFF OMITTED] T7590.013
    
    [GRAPHIC] [TIFF OMITTED] T7590.014
    
    [GRAPHIC] [TIFF OMITTED] T7590.015
    
    [GRAPHIC] [TIFF OMITTED] T7590.016
    
    [GRAPHIC] [TIFF OMITTED] T7590.017
    
    [GRAPHIC] [TIFF OMITTED] T7590.018
    
    [GRAPHIC] [TIFF OMITTED] T7590.019
    
    [GRAPHIC] [TIFF OMITTED] T7590.020
    
    [GRAPHIC] [TIFF OMITTED] T7590.021
    
    [GRAPHIC] [TIFF OMITTED] T7590.022
    
    [GRAPHIC] [TIFF OMITTED] T7590.023
    
    [GRAPHIC] [TIFF OMITTED] T7590.024
    
    [GRAPHIC] [TIFF OMITTED] T7590.025
    
    Mr. Tierney. Thank you very much, doctor.
    Ms. Mathews, you have a minute. Only kidding.

                STATEMENT OF JESSICA T. MATHEWS

    Ms. Mathews. Thank you, Mr. Chairman. I also would like to 
commend you on the farsightedness of the plan to hold this 
series of hearings and on the degree of bipartisanship that you 
and Mr. Shays have established. He laid out the components of a 
strategy, which begins, accurately, as he said, with 
determining priorities. Of all the steps he laid out, I will 
stop with the first one and try to lay out for you what seems 
to me the top priorities for our security strategy.
    If it had been me, I would have called these hearings 
Threats, Risks, and Strategy in a Post-Iraq World, rather than 
a post-9/11 world, because I think that the events of that day 
have had far less impact on the real world than they had on the 
American psyche. The Iraq war, on the other hand, is a very 
different matter. It will be the turning point that changes the 
basic parameters of our security picture for decades, I 
suspect.
    For one reason, the war's monopoly on our political energy, 
which has now stretched to 5 years, an eon in a time of fast-
moving global change, is one of the greatest uncounted costs of 
this war, the degree to which it has sucked the oxygen from 
almost every other issue. And unless a major effort is made to 
reverse current trends, the fissures that are now stretching 
across the global non-proliferation regime will, I think, 
become the worst of these.
    Among all the challenges that we face, only nuclear weapons 
pose an existential threat, and a world of 20 or 30 or more 
nuclear weapon states holds few prospects for avoiding nuclear 
catastrophe. The stability that we enjoyed for 50 years of the 
cold war didn't happen naturally; it happened because of 
unrelenting effort on the part of the two super powers and some 
very close misses. The likelihood that we could achieve that 
with 20 or 30 nuclear weapon states, which we could easily get 
to if the regime fails, is, I think, very close to zero; and 
the probability that some of all that weapons fuel will end up 
in the hands of terrorists is, I think, very close to one.
    The President has called nuclear proliferation the greatest 
risk we face. I think that is right. But only sporadic 
attention has been given in the last half dozen years either to 
the risks in North Korea and Iran, but, more importantly, to 
the systemic weakness that is affecting the regime as a whole. 
We had 30 very good years under the NPT; it kept the number of 
nuclear weapon states far lower than its authors dared to hope. 
The bad news is that the last 10 years have been very bad ones, 
starting with the nuclear test by India and Pakistan in 1998 
and then, 5 years later, the discovery of the A.Q. Khan 
network, where you had businessmen and scientists selling 
technology, bomb designs, and materials to whomever had the 
money to buy; individuals, the sellers, from more than a dozen 
countries.
    The North Korean and Iranian programs that we came to 
understand in that period used the cover of the NPT to hide 
covert programs weapons and underlined that way the Achilles 
heel, what we now know to be the Achilles heel of the existing 
regime, which is that no safeguards, no safeguards, no matter 
how good the IAEA is, can provide real protection when a 
country has direct access to plutonium or highly enriched 
uranium, weapons fuel.
    The Bush administration made a radical change in our non-
proliferation thinking, and one that urgently, I think, needs 
repair. In his 2003 State of the Union, the President described 
the threat as the greatest danger facing America and the world 
is outlaw regimes that seek and possess nuclear, chemical, and 
biological weapons. This new formulation attracted very little 
attention at the time, again, because we were already consumed 
in the national debate over the Iraq war. But it was profound 
change.
    Past Presidents of both parties, all of them, had focused 
on the weapons, but President Bush's new formulation shifted 
the focus from the weapons to the regimes, from the what to the 
who. And, of course, the United States got to decide who the 
good guys are and who the bad guys, even though our judgments, 
we know, change radically over the years, as they have, for 
example, with Saddam Hussein.
    But shifting the focus from the what to the who, from the 
weapons to the regimes, means that it is a very short step to 
regime change as the answer. This is the hole that we are in 
today, one that diminishes our ability to deal with Iran, both 
directly and with other key players who balk at taking small 
steps in the fear that these will give legitimacy to a U.S. 
attack, or who make bad deals with Tehran in the mistaken 
notion that they are serving world security thereby.
    But beyond Iran, there are two urgent threats that need 
addressing. First is the growing disenchantment among the non-
nuclear weapon states who have come to believe, 15 years after 
the end of the cold war, that the nuclear weapon states never 
intend to uphold their end of the NPT bargain, i.e., nuclear 
disarmament. They are increasingly wondering why they should 
continue to uphold their end of the bargain.
    The second threat is the glaring need to strengthen the 
regime: to impose meaningful penalties on states that abuse it 
as a cover for nuclear weapons programs, to eliminate direct 
access to bomb fuel in the non-nuclear weapons states, and to 
address the unanticipated threat from terrorists and corporate 
networks.
    The United States, however, right now is in no position to 
lead on this effort. It cannot command followers. Before it can 
do so, it needs to re-establish its own credentials in this 
field, and there are four steps that it must take. First, 
renouncing unilateral preventive war--preventive war, not 
preemptive war; war in the absence of imminent threat declared 
unilaterally--second, renouncing unilateral regime change for 
the purpose of political change; ratifying the comprehensive 
test ban treaty; and canceling new nuclear weapons programs. 
The last because it moves in directly the opposite direction 
from a treaty commitment that we made and re-established in 
writing as recently as 1995.
    Re-establishing arms control momentum with Russia is 
another priority, both important in its own right and for 
movement elsewhere around the World.
    I have to add that the decision to base an anti-missile 
system in Poland and in the Czech Republic derails, I think, 
hope for much progress in this direction for the time being. 
Pushing ahead with a system, that does not yet work, against a 
threat from Iran, that does not yet exist, at the expense of 
relations with a state, Russia, whose participation is 
essential, if the threat is to be prevented, is a choice that, 
in my view, can only be--these are all important, as is 
recovering our ability to listen, to really listen, to other 
countries and recovering our confidence in our ability to 
pursue national ends through diplomacy.
    But restoring the trust in American leadership that has 
been lost so widely, as the chairman described at the outset, 
will only come from deeds, and it won't happen quickly. The 
good news in the nuclear area is that the critical steps that I 
have outlined are all under our control; we can take them 
alone, they don't have to be negotiated with anybody.
    Let me turn much more briefly to three other challenges. 
Any short list like this is somewhat arbitrary, but, to me, 
these three issues, together with non-proliferation, stand out. 
First, China. History has no examples, that I know of, of a 
rapidly rising new power not producing at least tension, and 
usually outright conflict, as it enters the circle of major 
states. China knows this very well, and it has a strong desire 
to avoid conflict; hence, its peaceful rise. Conflict is bad 
for business, after all, and, above all, China wants to grow. 
Yet, if the path is any guide--and I think it is--it is going 
to be very difficult to manage China's rise peacefully, 
especially in an energy-constrained world that must begin to 
deal seriously with climate change.
    The only silver lining to 9/11, I think, was that it put an 
end to another period of growing sense that China was the 
enemy, which, on September 10, 2001, was very much with us. 
That ended overnight and substituted a real enemy for a 
potential or imagined one.
    We are on the right track now generally, I think, with 
China, but if, by our behavior, we, over the coming years, turn 
China into an enemy, if we get China wrong, that, other than 
the failure to rescue the non-proliferation regime, will be the 
single most dangerous worst mistake we can make.
    The policies, on the other hand, that are currently wrong, 
that urgently need to be turned right, deal with the Middle 
East and the world of Islam. Olivier Roy, the distinguished 
French expert in this field, points out that the West has tried 
three different approaches with this area and with democracy, 
and that all three have failed: we have tried to strengthen the 
existing authoritarian regimes; we have tried reforming the 
existing authoritarian regimes, almost, in some cases, to the 
point of their collapse; and we have tried to impose democracy 
from scratch. None have worked.
    What we have not tried to do is to build democracy with the 
participation of the prevailing political forces in these 
states, and those forces today are Islamists. They cannot be 
end-run; they must be engaged. We should be engaging with 
moderate Islamist forces, and by that I mean those that have 
renounced the use of violence as a political tool, even when we 
find others of their views uncomfortable or even abhorrent.
    The other precondition of success in the Middle East will 
be a much more vigorous and engaged effort on Israeli-
Palestinian peacemaking, and one that is and is seen to be more 
even-handed.
    Finally, we have to tackle climate change, which means that 
we, at long last, as Bob Lieber just said, need a national 
energy policy. Voluntary policies are a joke. Research-only 
policies are a cop-out. Research is necessary, but not 
sufficient. And no serious national objective has ever been 
pursued on a voluntary basis. The endless and fruitless debate 
over whether to use price or regulation to pursue energy 
policies should end with the recognition that an effective 
policy requires a mix of both. The search for magic bullets, 
from oil shale to fuel cells to biofuels should be seen as a 
recurring hunt for a simple solution to a very difficult 
problem that will never work. And the policy must begin, must 
be built on, must be based on the recognition that, by far, the 
largest, cheapest, most quickly accessible and most climate 
sensitive energy resource that we have is drastic improvements 
in energy efficiency in every sector.
    So, Mr. Chairman, thank you for your patience. I hope these 
thoughts, this identification of these, I think, four 
overwhelming priorities for us are helpful to you as you pursue 
this daunting security agenda.
    [The prepared statement of Ms. Mathews follows:]

    [GRAPHIC] [TIFF OMITTED] T7590.026
    
    [GRAPHIC] [TIFF OMITTED] T7590.027
    
    [GRAPHIC] [TIFF OMITTED] T7590.028
    
    [GRAPHIC] [TIFF OMITTED] T7590.029
    
    [GRAPHIC] [TIFF OMITTED] T7590.030
    
    Mr. Tierney. They are incredibly helpful to us. For all 
three witnesses, thank you very much. I am almost inclined to 
just get unanimous consent to let the three of you keep on 
talking, without the questions, but being who we are, that is 
not likely to happen.
    I think we might retract the 10 minute period and go 5 
minutes, but keep the caveat that people should feel free to 
interject an intervention if they want. As long as that isn't 
abused, we will let discussion flow as freely as possible.
    Let me just ask one question to start. How would the threat 
represented by 9/11 fit into the overall strategic priorities 
that this country has? If you had to look and say that you had 
the 9/11 threat and then you have all the other things we have 
to attend, where would you fit that in and how would you 
address that?
    Whoever wants to speak.
    Mr. Lieber. It seems to me that threat is overriding. 
Inevitably, decisions about policy, large and small, involve 
tradeoffs. For example, there is a genuine debate, as there has 
been in this country for two centuries, about where you draw 
the line or where you strike the balance between civil 
liberties and our historical freedoms, and a long continuum 
vis-a-vis taking strong actions to reduce our vulnerability and 
so on. There are not easy answers to that, but I would say that 
whether on that issue or a wide range of things that the three 
of us have discussed, the importance of threat ought to be the 
overriding concern.
    By contrast, there are those who talk about terrorism as a 
police problem. I respectfully disagree. So I don't have a 
specific actionable response for you other than to say that 
threat symbolized by 9/11 and incorporating the elements I 
cited, of which proliferation, I think, is clearly part, has to 
be the overriding consideration, whether you are thinking not 
just about wiretapping, but about costs and tradeoffs or 
gasoline taxes or forced deployments, or what have you.
    Ms. Mathews. Mr. Chairman, as I suggested, I think 9/11 
meant more to us psychologically than it means in purely 
national security terms, and far less now than does the basket 
of issues that have been created by the Iraq war. I don't mean 
to suggest that terrorism is not important; it is. And Bob has 
laid out a lot of the issues that swarm around it. But it 
doesn't pose an existential threat to us, and nuclear weapons 
still do. And we are on the verge of a breakdown, I believe, in 
the regime. That is really the crux of the Iran problem. We 
have now 12 countries in the Middle East that have gone to the 
IAEA and expressed an interest in starting nuclear energy and 
enrichment programs.
    Mr. Tierney. May I interject something here?
    Ms. Mathews. Sure.
    Mr. Tierney. What is your opinion if the United States was 
serious about working toward the imposition of a nuclear-free 
zone in the Middle East, the impact that would have on the 
larger problems that we are confronting?
    Ms. Mathews. I think a nuclear weapons-free zone is doable 
over the long, longer term. Right now, we are in no position to 
push for that or anything else, as I suggested. We don't have--
the Carnegie Endowment, 2 years ago, did a major study on 
nuclear proliferation called Universal Compliance. We took the 
draft of that study to 22 countries. We talked all over the 
world about it. We had 33 countries at our non-proliferation 
conference this past June, and the feeling that I described of 
utter unwillingness to consider any steps to strengthen the 
existing regime and, indeed, in many cases a sense of real 
outrage at the nuclear weapon states for not doing their end of 
the bargain; and then, on top of it, to the United States both 
with respect to the CTBT, which countries are very well aware 
of, and the new nuclear weapons programs. To lead, you have to 
have followers, and we are not in a position to command 
followers right now on this set of issues. And, of course, I 
think a nuclear weapons-free zone, realistically, will require 
an Israeli-Palestinian peace and some resolution of the current 
Iranian program. So it is way down the road.
    Mr. Tierney. So you see that as a subsequent step as 
opposed to an initial step?
    Ms. Mathews. I do.
    Mr. Tierney. Thank you.
    I have very little time left.
    Mr. Isaacson, I don't know if you wanted to interject on 
that, on the question of how it fits into the overall privacy.
    Mr. Isaacson. [Remarks off microphone.]
    Mr. Tierney. OK.
    Mr. Shays. Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman. Georgie Anne Geyer, 
the very respected foreign policy columnist, wrote, in 2003, a 
few months after we had gone to war in Iraq, at this time, that 
Americans would inevitably come to a point where they had to 
decide whether they wanted a government that provided services 
at home or one that seeks empire across the globe.
    Ann McFeatters, a columnist for the Scripps Howard 
newspaper chain, wrote a couple of years ago that we were 
headed for what she described as a financial tsunami when the 
baby-boomers started retiring in heavy numbers in 2008 and in 
the years following.
    Before the first Gulf war, which I voted for, I heard 
briefings from General Schwarzkopf and Colin Powell and others 
about Saddam Hussein's elite republican troops and how great 
the threat was. And then I watched those so-called elite troops 
surrender to CNN camera crews and empty tanks, and I thought 
then that the threat had been greatly exaggerated. Now, before 
this Gulf war, I was at the White House and they told me that 
Saddam Hussein's total military budget was a little over two-
tenths of 1 percent of ours, most of which he spent--they 
didn't say this, but most of which, it turned out later, he had 
spent building castles and protecting himself and his family.
    Now we have hundreds of registered homeland security 
lobbyists and we have thousands of defense lobbyists all 
pushing us to spend more, and, yet, we have these estimates 
that this war is--we are already at $750 billion or so, and now 
we are soon going to be asked for $200 billion more; and 
counting future military costs and medical costs and so forth, 
they are talking about $2 billion. Then we have some people 
wanting us to take action against Iran that could potentially 
be even more expensive.
    What I am wondering about is this. How do we achieve the 
balance? Because the politically correct, politically popular 
thing to do is, when they use the word security, always say 
that we are not doing enough and always say that we need to do 
more. In fact, the Wall Street Journal wrote, a few months 
after 9/11, that we should give four times the scrutiny to any 
bill that has the word security in it because they saw that 
every department and agency was coming to us asking for more 
security funding.
    Yet, some of us wonder if we are going to be able to pay 
our veterans' pensions and our social security and our Medicare 
and Medicaid and so forth in the years ahead if we don't 
somehow look at these threats realistically. We can't spend the 
entire Federal budget just because somebody--keep increasing 
this spending just because somebody says security or threats. 
How do we achieve that balance?
    Second, I read a column by Walter Williams, the 
conservative columnist, that said al Qaida--this was a year or 
so ago--that al Qaida was now less than 3,000 members, most of 
whom were people living at home with their parents and had 
almost no money. I heard a talk last week by Larry Johnson, the 
former CIA analyst who is now a Defense contractor, who said al 
Qaida was now down to about 600. I know they have thousands of 
al Qaida sympathizers, but I am wondering if you know how many 
people are in al Qaida.
    And then, just so I get it all out, third, I am wondering 
what your predictions are for Iran. Do you think that we will 
be making what are politely referred to sometimes as searchable 
strikes and taking out nuclear facilities any time within the 
next 2 or 3 years? I would like your predictions.
    That is three questions. Mr. Isaacson, we will start with 
you, I guess.
    Mr. Isaacson. OK. I think your challenge here is to balance 
an emotionalism that comes both after 9/11 and from the 
existential threat that we might feel from radical Islamic 
jihadism, as Bob so aptly described it, and a realism that says 
how do we effectively counter it. And this is a very difficult 
question. If you ask me is our invasion of and continued 
presence in Iraq doing more to help or to hurt radical Islamic 
jihadism in this world, I am not sure there is a clear answer. 
So it is not simply a matter of spending billions more on 
military in Iraq.
    This is not for me getting into the argument about Iraq, it 
is just that this is a complex problem, when you say does it 
help or hurt the threat of radical Islamic jihadism.
    So I think we have to be very realistic. As I think you are 
suggesting, we need to inject a note of realism in this. This 
is a threat, but not one that demands us abandoning the economy 
of the United States and other priorities. And in answer to 
both the chairman's question and others, how do you put this in 
the ranking of priorities, General Powell has said repeatedly 
that the jihadists cannot destroy American society; only we can 
destroy American society by betting too contorted in this war 
against the jihadists. So I think there is a note of realism 
that you are trying to inject that I would agree with.
    On Iran, I think that if I look at this panel and on this 
panel, I may be the person least qualified to guess what we are 
going to do surgically in Iran or not, so I am not going to--
especially with people recording what I say--try to pretend an 
expertise in that.
    Mr. Lieber. Congressman Duncan, let me respond to part of 
your list of really comprehensive and vital questions. First, 
on the financial side, it is certainly the case that America 
needs money spent on its foreign policy needs and security, to 
be spent as widely and as prudently and efficiently and 
effectively as possible.
    I would note, in terms of affordability, that despite the 
enormous costs that the United States now faces for defense for 
the wars in Afghanistan and Iraq, for rebuilding its own 
forces' equipment, right now we are spending approximately 4.2 
percent of gross domestic product. That is contrasted to about 
2.93 percent just before 9/11. But you have to set it against a 
prior crisis in American history. During the height of the 
Reagan buildup in the mid-1980's, the number was about 6.6 
percent, and for large portions of the Truman, Eisenhower, and 
Kennedy administrations it was into double digits, 10 percent 
or sometimes more.
    We have the capacity to spend that without destroying our 
economy. But this brings up an issue that Aaron Friedberg of 
Princeton University has recently written about knowledgeably: 
the urgent need for a much more effective mechanism for policy 
management and coordination, which combines military and 
defense issues, political dimensions, economics, and so forth. 
Because of the complexity of the way the executive branch is 
organized, the complexity of the committee structure in 
Congress, and the nature of the issues themselves, we haven't 
had the degree of coordination that ought to be the case and 
compared to what existed sometimes in the past.
    Very briefly on one other point. Bruce Hoffman at 
Georgetown, who is a prominent and superbly qualified member of 
our faculty in security studies and one of the country's 
leading terrorism experts, has recently said that al Qaida is 
back. They were badly damaged initially, but they have 
recovered a good deal in terms of capacity and so forth. So I 
think there is a very real al Qaida risk.
    Finally, I would quote the dean of our Georgetown School of 
Foreign Service, my colleague, Bob Gallucci, who was an 
opponent of the use of force in Iraq, but who has written that 
he is very concerned about the risk of a concealed nuclear 
device going off in one or more American cities sometime in the 
next 5 to 10 years. That is related to terrorism. So I don't 
think, despite the relatively small size of al Qaida overall, 
that we ought to minimize or otherwise overlook the gravity of 
the risk it represents, all things considered.
    Ms. Mathews. I am trying to choose among all the questions 
that you have asked.
    Mr. Tierney. You are probably going to have to put that on, 
Ms. Mathews, your mic.
    Ms. Mathews. Sorry.
    What to say? Bob is certainly right that, as a percent of 
GDP, we have spent much more. We haven't spent it in a 
globalized economy before and we have much higher spending on 
other priorities, particularly healthcare, now than we have 
before.
    If Congress wanted to save $200 billion a year, it could, 
for the same security, out of the existing $600 billion defense 
budget, but there is a whole lot of politics buried in that. 
But I think every close student of the defense budget believes 
that at least a third is wasted. But I recognize that is a 
politically unrealistic thing, perhaps, to say.
    Since the others haven't, let me address Iran. I don't 
think that it is likely that we are going to attack Iran, 
because I think the arguments against it are so overwhelming 
and so overwhelmingly obvious. I should say that I also didn't 
think we were going to go into Iraq, because it seemed to me 
really quite stupid at the time. So you take this for what it 
is worth. But we have a very limited target set in Iran. There 
are probably facilities that we don't know about. We do not, of 
course, have the troops to go on the ground, and air strikes 
without ground forces are a minimal, modest utility.
    We are currently dealing in a world of Sunni terrorism, and 
if we attack Iran, we will add a whole new layer of Shiite 
terrorism. They have made that very clear, and they clearly 
have the capacity to unleash it.
    And, finally, we will take a country that hasn't, to the 
best of our knowledge, made a firm decision either way on 
whether their security requires nuclear weapons, and create one 
that is absolutely 100 percent permanently committed to having 
them. And, finally, it will underline the lesson to other 
countries that if you think you have a serious opponent, a 
serious enemy in the United States, you need nuclear weapons to 
protect yourself.
    So, for all those reasons--I also think the military has a 
very clear appreciation of all of those points. So I think it 
is unlikely. I also think it would be, it is probably obvious, 
a catastrophe for the United States.
    Mr. Tierney. Thank you, Ms. Mathews.
    Mr. Duncan, I can tell you that we have some plans to 
perhaps have some hearings on that issue of Iran and 
consequences and plans as well, so we will keep you informed of 
that.
    Mr. Cooper, Mr. Isaacson is ready for his exam, his orals.
    Mr. Cooper. Thank you, Mr. Chairman. I am grateful to you 
for having this very important hearing. I am sorry it is 
perhaps not getting the attention that the hearing down the 
hall is that is more involved with using foreign policy and 
security issues as a domestic political club.
    I am proud that Walter is here. I have been in awe of his 
career for a long time. He brought an excellence to journalism 
that is rarely seen. I also liked his four books, isn't it? 
Kissinger, Wise Men, Ben Franklin, and the latest and greatest, 
Einstein. If he can humanize that genius, you are an amazing 
writer, and you are. So this will not be an exam. I am 
delighted to get this wisdom in three parts.
    I have a particular personal interest because on the Armed 
Services Committee they have recently established a panel on 
roles and missions, and that is Pentagon speak for redoing the 
National Security Act and Goldwater nickels and things like 
that involve not only Pentagon, but other agencies. So I 
welcome your expertise in that area as well.
    Two questions primarily. First of all, the list of threats 
that are on page 2 of Dr. Lieber's testimony is so startling 
that I often think that we here on the Hill let down our guard. 
Like if the group of 100 foreign policy experts is correct, 
that 80 percent chance of a terrorist attack on the scale of 9/
11 within a decade; and then another panel of experts, within 
10 years, 29 percent chance of a nuclear attack in the United 
States, 40 percent of a radiological attack, 70 percent of some 
kind of CBRN event. That, plus the Gallucci statement, all 
those are total game changers.
    So I would like ask the other panelists if you share Dr. 
Lieber's perception, that grim view of our near term future, 5 
to 10 years, facing threats with that level of probability.
    Ms. Mathews. I have a modest view of those sorts of numbers 
because I know how I feel when I agreed to answer one of those 
polls, which is, you know, you look at it and you sort of pick 
a number out of the damp air.
    Mr. Tierney. Is your mic on, Ms. Mathews?
    Ms. Mathews. Sorry.
    Mr. Tierney. Thank you.
    Ms. Mathews. So I just don't believe them. But, yes, one of 
the big reasons why non-proliferation is so important is 
because of the terrorist threat. But terrorism without nuclear 
weapons is not either an existential threat nor, I would argue, 
even a strategic one. So that is the context in which I put it. 
Imagine 9/11 without the Twin Towers designed in the way they 
were, engineered in the way they were. It would have been a 
totally different event. So that is one of the serious reasons 
why I put the emphasis on the non-proliferation needs, and 
there we do face a really serious set of threats that deserves 
far greater attention than we have given it.
    Mr. Cooper. Walter, do you have such a view?
    Mr. Isaacson. Yes, I would like to say, as Jessica did in a 
way, that we are entering a world where we are faced with a 
great deal of threat and hatred from radical Islamic jihadism, 
and a new type of world in which non-state actors and cross-
border--not nation states, but others, are doing that threat. 
And, as Jessica said, I see the biggest problem there being the 
spread of weapons of mass destruction, most particularly 
nuclear weapons.
    I do feel that it is likely we are going to have terrorism 
in this country. There are going to be terrorist attacks. And I 
am going to say something that I think would be difficult for 
perhaps others to say, those of us in think tanks or more 
insulated: we have to keep that in perspective, that you and I 
lived in Great Britain in a time in which there were lots of 
terrorist attacks in Northern Ireland. What makes a terrorist 
attack an existential threat, as Jessica said, is when it is 
combined with things such as nuclear weapons.
    So I know that Bob Gallucci is talking about chemical, 
biological, radiological, and nuclear weapons as possible 
notions of attack. I think that we should not contort ourselves 
so much to fear terrorism as an existential threat as, instead, 
to define it more specifically as jihadist groups acquiring 
nuclear weapons and combining that with a desire to attack the 
United States.
    Mr. Lieber. Congressman, may I followup?
    Thank you for citing those passages. I think the point is 
important. I would note, of course, these are educated guesses 
by smart people. We are not talking about the laws of physics, 
but I think those guesses or projections or estimates do need 
to be taken very seriously and with the gravity they suggest.
    I think I have a slight difference with my colleagues on 
the panel, Jessica and Walter, in that I don't think we should 
minimize what the disruption of 9/11 was all about, even though 
it wasn't nuclear. Not only did 3,000 people die, but it 
paralyzed the American economy, transportation system, 
communications for periods of time. By one estimate, it may 
have cost as much as $1 trillion in overall effects and so 
forth.
    Obviously, nuclear terrorism is in a class by itself. We 
should not minimize the peril that mass casualty terrorism 
represents to a very complex, very sophisticated economy with 
considerable vulnerabilities.
    One more point. Our European brothers and sisters often 
point to things like the IRA, ETA in Spain, the Red Brigades 
and say, oh, you Americans have just lost your virginity and 
you are overreacting. Well, I beg to disagree. In those 
instances the things that those groups were doing did not 
represent the kind of impact that 9/11 and potential future 
attacks could represent. Moreover, the things that al Qaida and 
radical Islamists want are things that no American government 
could ever, I think, concede to, because they are so 
fundamental to the nature of our society.
    Mr. Cooper. Thank you.
    Thank you, Mr. Chairman.
    Mr. Tierney. Thank you, Mr. Cooper.
    Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman. I too want to commend 
you on this very important hearing, an extraordinary panel, and 
very, very good questions about a profound problem that is not 
only pervasive, but seemingly growing.
    I remember the former defense secretary said that the 
measure of the effectiveness on the war on terrorism, are we 
capturing, are we detaining, are we stopping more terrorist 
activity than is being created. It seems like, particularly 
with the situation relative to al Qaida, al Qaida is morphed 
into al Qaidaism. There are groups that are al Qaida inspired, 
al Qaida linked, and they have also found themselves to be a 
global influence. You know, there are intelligence reports now 
that say that al Qaida is in the Sudan. Al Qaida is obviously 
in Iraq. It is an ideology. I often wonder if this is an 
ideology that is based on a twisted interpretation of the 
Quran, where are the moderate voices within the Arab Muslim 
community that are standing up to this? What is our role in 
helping to influence a challenge internally to this threat?
    The other thing that I am struck by, when you visit places 
like Afghanistan, when you visit places like Iraq, when you 
read about places like Iran, is the relative youth of the 
population. We just visited, a group of members of this 
subcommittee, Afghanistan and Pakistan last month, and I was 
very impressed by the U.S. military, with their level of 
sophistication, with their acceptance that you don't win this 
war by the use of military force alone. This is, as many of you 
have said in different ways, a battle for the hearts and minds 
of the population, the imagination of the people there, who 
have been humiliated, who have been disaffected through 
centuries of oppression. I think it requires, in terms of U.S. 
foreign policy, a much more sophisticated mind, a much more 
strategic approach.
    When we left Afghanistan, after we thought we defeated the 
Taliban and al Qaida, to divert resources to Iraq, supposedly 
to give breathing room for the National Unity Government to 
achieve political reconciliation, it seems as though we gave 
breathing room in Afghanistan for the regrowth, for the 
reconstitution of al Qaida and other terrorist groups.
    My question is, is it too late? Have we allowed this thing 
to evolve to the point where we have lost control of it? 
Because the next al Qaida attack on the United States likely 
won't come from Afghanistan, likely won't come from the Middle 
East; it could come from Madrid, it could come from London, 
England. This is a problem. Are we prepared for it? What 
lessons have we learned and what lessons can we learn moving 
forward?
    Mr. Isaacson. Let me take the first crack, which is I don't 
think it is too late, but I do think that what you have put 
your finger on is that, like the cold war, this is going to be, 
as they called it back then, a long twilight struggle. It is 
not going to be in 5 years we declare victory against Islamic 
jihadism and get to come home; it is a 40, 50-year, two 
generations, just like the cold war was. And that is because it 
comes in two components like the cold war. The first is a real 
security component, you know, protecting against Soviet 
missiles in that case; in this case protecting against 
terrorism with defensive measures and some offensive measures.
    But, second, like the cold war, it is a long ideological 
struggle and, at the moment, as you said, the former secretary 
of defense's question may be right, we may be creating a 
broader range of terrorists by some of what has happened 
recently.
    So I think we have to focus on a long ideological fight for 
our values in a world in which it is going against us right now 
with the spread of al Qaidaism, as you put it, and that 
includes the values of tolerance, that people can have 
different religious or other beliefs and you can live in a 
society with them; and the basic sense that individual rights 
should be protected. And we are going to win that battle 
economically, morally, and through the expressions of our 
values, but we have to really engage in that struggle, which is 
not something I see us doing right now.
    Mr. Lieber. Briefly. I agree, by the way, completely that 
it is going to be a long struggle. The analogy with the cold 
war is inexact, but not bad. It is probably the most useful 
analogy if you want one. It is a struggle ultimately for the 
future of Arab Muslim world, with some extensions, for example, 
Pakistan. We can influence, we can help, but ultimately that 
struggle is going to be played out within those societies.
    It is also worth noting it is not only or all about us. 
Think of the murder of Van Gogh in The Netherlands, eviscerated 
on an Amsterdam street; or the threats to the very courageous 
Somali-Dutch woman, Hursi Ali; or bombings in North Africa; or 
the killing of children in front of their parents in 
Afghanistan or Algeria; or the London and German bombers, 
Glasgow and London Airport or the thwarted attempt in Germany 
where you had indigenous people with German and British 
citizenship; or al Qaida of Iraq killing Shiites and blowing up 
Shiite shrines like the Golden Dome in Samarra.
    The 2002 Arab Human Development Report, written for the 
U.N. Development Program by 15 Arab economists, referred to 
three desperate deficits in the Arab Muslim world: one, in the 
role and treatment of women; two, in knowledge and information; 
and, three, in liberty and political freedom. There is a core 
problem which is very deep-seeded.
    One other point in passing, but I don't think this should 
all be gloom and doom. I think one very encouraging sign of the 
past 6 years is that while there have been a number of 
instances in Europe and elsewhere where indigenous and 
sometimes ostensibly well integrated Muslims or Arabs who 
sometimes were citizens of this country, sometimes not, carried 
out terrorist attacks or were interrupted in major attack 
plans, that we have been blessedly largely free of that in the 
United States; and I think a lot of that has to do with the 
nature of American society: adaptable, flexible, and which 
gives its Arab and Muslim immigrants and citizens the sense 
they are Americans and are fully accepted. I think that is the 
strength of America, and it is certainly one element, I think, 
of why we have not, so far, faced a repeat of 9/11.
    Mr. Tierney. Thank you, doctor.
    Thank you, Mr. Higgins.
    Mr. Welch.
    Mr. Welch. Thank you, Mr. Chairman.
    Thank all of you.
    Listening, I don't want to say it is depressing, but I will 
make an observation. Everything you are saying that we should 
be doing we are not. Basically, institution-building for the 
modern threats, there has been none; the definition of what the 
conflict is is still debated, but, actually, there has been, I 
think, an operational conclusion that it is all military all 
the time; and there has been a relaxation on the effort to stop 
the proliferation of nuclear weapons.
    I am interested in whether the other panelists agree with 
Dr. Mathews on this question of whether Iraq simply has to be 
dealt with before we are going to be able to address these 
profound transformational foreign policy questions for 
security, because it certainly is the sense that I have, 
sitting here, that it is all Iraq all the time and it is just a 
powerful impediment to any clear thinking.
    On one of these trips when we were in the Middle East, when 
we went over there, we met with the King of Jordan, and I was 
thinking that he was going to be talking about Iraq and how 
that had to be dealt with. Of course, they have to deal with 
hundreds of thousands of Iraqi refugees and it is very 
unstable, and that was third in his list of problems. The first 
one for him was the Arab-Israeli conflict; second was Lebanon; 
and then a distant third was Iraq. And, of course, over here it 
is all Iraq all the time.
    So my question, I guess, to Mr. Isaacson and Dr. Lieber is 
whether you are in agreement that if we are going to even start 
considering the recommendations you are making, somehow, 
someway, we have to get Iraq behind us.
    Mr. Isaacson. I am not sure I would take fully that premise 
from Jessica's testimony, so I don't want to put the words in 
her mouth, but let me address the question.
    Mr. Welch. Well, she can respond too.
    Mr. Isaacson. I do believe, personally, that this is a 
multi-pronged approach, and the resolution of the Israeli-
Palestinian issue is very important right now, and you see some 
hopeful signs, I would say, in Dr. Rice's trip. I also agree 
that there is an enormous amount we should be doing that we 
aren't, whether it is their building madrassas around the world 
and, you know, we are not even close in figuring out how we are 
going to have education programs, English language, technology 
programs. The fact that we cannot compete with the madrassa 
movement, when we know how to do things like that, we are just 
not doing it, is appalling to me; and that we are letting more 
of their education, as opposed to us having technology centers, 
education centers. We are doing some of that, and I am involved 
with some of that, but I just wish it were 100 times more.
    On Iraq, I don't think it has to be solved totally first, 
before you get on to anything else. I think it would be a very 
unwise approach. I do think that the current implementation of 
our Iraq strategy and the current occupation strategy--I don't 
mean occupation to be a loaded term, but what we are doing 
there--is actually very bad right now for us dealing with the 
other problems.
    Mr. Welch. Thank you.
    Mr. Lieber. I share your sense that there is--there is a 
term I like to use, the problem of the reductio ad Iraqum.
    Mr. Welch. Oh, I use that all the time too. [Laughter.]
    Mr. Lieber. Two years of Latin in Chicago public schools 
serves me well.
    It is certainly true that Iraq is the elephant in the 
living room. There is a tendency to see everything else through 
that lens. I think the virtue of the hearings that this 
committee has called is to encourage us to not ignore Iraq, but 
to try to look beyond it, especially for whoever is responsible 
for the Presidency in January 2009.
    I would also note, if we look back, that at the time we 
went into Iraq, 70 percent of the American public, more than 
three-fifths of the Congress, two-thirds of the European 
governments supported that judgment. It proves to have been a 
very fateful decision. The consequences of our involvement in 
Iraq are still not entirely clear, and the judgment of history 
may be ultimately quite harsh or it may not be.
    I am a little more cautiously optimistic about the current 
strategy or tactic in Iraq. I think that after the fall of 
Baghdad there were serious failures in what to do, but that the 
policy being followed by General Patraeus has at least the 
possibility that it may be turning things around. I use lots of 
cautions, and I think the advantage is to know what you don't 
know. It remains to be see what will occur in Iraq. There is at 
least a possibility that the situation will stabilize.
    Clearly, Iraq is having an impact elsewhere, but I think it 
is also the case, as was mentioned in the question, that other 
countries are looking at other issues. I suggested some of 
them, Jessica has suggested others of them, and I think there 
is more of a willingness to look beyond Iraq.
    Last, in Europe, for instance, for those of us who travel 
and go there a good deal, the kind of bitterness and heated 
debate that marked the years 2002, 2003, 2004 has subsided, and 
I think there is a willingness to try to look beyond Iraq, 
rather than focus on that to the exclusion of other priorities.
    Ms. Mathews. I didn't mean to suggest there is nothing we 
can do, because----
    Mr. Welch. I didn't hear that.
    Ms. Mathews. And I want to add to my earlier remarks a 
couple of other things I think we can change. But I do believe 
that everything we are doing, as you suggest--I mean, the big 
cost is simply the oxygen. It is just impossible to get away 
from. And the amount of political capital that we all, as a 
country, have to focus on this, there is very little left over 
for other huge priorities.
    And I am under no illusion that we could stop terrorism by 
changing U.S. policies, but we can affect it in a big way by a 
number of what I think are really, really bad policy choices, 
and I want to add also to the prior question three.
    One is the question of a permanent U.S. presence in Iraq. 
At the end of Iraq week up here, a lot of the media said, oh, 
gosh, you know, Patraeus came and talked for hours and hours 
and nothing changed. But, in fact, in my judgment, something 
very big changed in the President's speech: when he said we are 
going to have fewer troops and a bigger mission. He said what 
Secretary Gates said at the beginning of June, which was a 
long-term presence on the model of Japan and Korea.
    The whole Arab world believes that we went into Iraq in 
order to dismantle the most powerful Arab state and get our 
hands on its oil for Israel's benefit and our own. That is what 
they believe already. And, of course, one of the reasons that 
we chose to go in was because of the problem of the current 
American presence in Saudi Arabia, military presence.
    If we choose to do this, and do it without public 
discussion, without involvement of the Congress--and, as far as 
I know, there has never been a national security meeting on 
this subject or a debate within the administration on the 
wisdom of building permanent U.S. presence in Iraq--it will be 
one of the biggest mistakes of this whole business.
    The passage of amendments forbidding the spending of money 
to create a permanent presence is a waste of time, because the 
administration has figured out who can say what is permanent. 
Fifty years, not permanent. But 50 years is a great big 
mistake, in my judgment. If it were me, I would be up here 
having bicameral, bipartisan hearings on the wisdom of this 
choice. Not in the context of the administration's position, 
necessarily, but whether this is something the United States 
wants to do. I think it has everything to do with the supply of 
people to al Qaida.
    Second, we need a new policy on democracy promotion. In 
particular, we need a set of policies to separate democracy 
promotion from regime change, which is what it is believed to 
be in most of the rest of the world, not just the Middle East. 
Russia, for example; China. This is a subject where we can 
affect our destiny and the likelihood that we will face 
terrorist attacks.
    And, finally, Pakistan. I am a deep, deep, deep pessimist 
about our ability to turn Afghanistan. Again, history tells me 
this one is going to take 10 times what we are willing to give 
it. But Pakistan we cannot afford not to be paying an awful lot 
more attention to. And I think we do have some levers to affect 
the supply of terrorists in Pakistan.
    So my point is while we are paying a terrible price in 
Iraq, and will continue to for many, many years, there are 
things that will make it either better or rose.
    Mr. Tierney. Thank you.
    Thank you, Mr. Welch.
    Mr. Welch. Thank you.
    Mr. Tierney. Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman. I want to thank you 
for holding this hearing and the great job you have been doing 
on this subcommittee. It certainly has been very helpful for 
all the Members.
    I appreciate your last comment about Pakistan. I just came 
from an Armed Services Committee hearing where the issue is 
Pakistan, its stability, our relations with Pakistan, and the 
issues of the war on terror, Taliban, and our ability to be 
effective in Afghanistan, al Qaida, and perhaps even Osama bin 
Laden himself seeking or having refuge in Pakistan.
    One of the discussion topics has been the problems and 
difficulties that Musharraf is having in his own country, and I 
was wondering if you might each comment for a moment on the 
issue of the difficulties there. And I am particularly 
interested in if you de-couple his relationship with the United 
States, does he still have problems, and what are those 
problems, and how should we look to our policies to affect a 
greater relationship with Pakistan and an acceptance of greater 
respect and view by the people of Pakistan of the United States 
as an ally and a friend.
    Mr. Lieber. There is a lot of uncertainty here, but in the 
first instance it would be my sense that his problems are 
overwhelmingly internal. They have to do with the nature of 
Pakistani society, the fact that the military has ruled, either 
directly or behind the scenes, that country for a very long 
time with the very unequal distribution of wealth in that 
society, which is really quite extraordinary; the role of the 
intelligence service, the ISI, and so forth. The embrace of the 
United States probably adds something to his problem 
internally, but in other respects can be a source of strength 
because of economic and military support.
    The problem there, as in some other countries in the Middle 
East, is that some Middle Eastern, Muslim, and Arab leaders 
have used a deliberate tactic--it is true, I think, in Egypt--
of apres moi le deluge, that is to say, deliberately cracking 
down on moderate opposition elements who would like to use the 
democratic process, be non-violent and so on, in order to say, 
look, you may not like what I am doing, but the people who are 
out there who would take over otherwise are the really, really 
bad guys. Sometimes that is very exaggerated and sometimes not, 
but I think it is something you have to weigh.
    There is an argument about Pakistan that if Musharraf fell, 
it would not be the extreme radical Islamists who would seize 
power, and that there are other oppositional elements, but both 
civil and military leaders of Pakistan in the last four decades 
have left a lot to be desired vis-a-vis their own people.
    Ms. Mathews. I agree with all of that. Certainly, his 
problems go beyond his connections to the United States. I just 
would underline something Walter said earlier. A huge part of 
our problem with Pakistan's problem has come out of Pakistan's 
failure to have an educational system. This is not beyond our 
ability to--I mean, when you put it in the context of the Iraq 
war, those costs of substituting a functioning public education 
system for the madrassas is trivial. But this is going to be a 
terribly tough problem for exactly the reasons that Bob just 
described, is the alternatives are not great.
    I think we should have, 4 years ago, pushed Musharraf much 
harder in the direction of the reforms that he had promised, 
but it would have required a balancing against our anti-terror 
goals, which, of course, is what foreign policy is all about. 
But we don't have the luxury of not giving Pakistan whatever 
attention it demands because of its nuclear weapons.
    Mr. Isaacson. I come at this with a strange historical 
conflict of interest, which is--and I could embarrass 
Congressman Cooper if he were here. When we were in graduate 
school, the first politics I ever did was that I ran Benazir 
Bhutto's campaign for the head of the debating union at our 
graduate school, and Jim Cooper helped me.
    I do think that Benazir Bhutto and others coming back as a 
democratic opposition, adds to the turmoil in Pakistan but is 
inevitably part of the process there, and probably a good part. 
I agree that General Musharraf's problem is not simply the 
embrace of the United States, because Mrs. Bhutto and others 
are not necessarily running on anti-American platforms, as far 
as I can tell, or trying to stoke up anti-American resentment.
    If you look at Pakistan versus India, you see the model we 
are trying to create. When I was in India a couple of times 
ago, I was there for the election, and what happened was a 
Hindu prime minister was defeated by a Roman Catholic woman, 
Sonia Ghandi, who stepped aside for a Sikh prime minister, who 
was then sworn in by a Muslim president. That is a pretty 
awesome shining light of what we have to get to in terms of 
pluralism in this world if we are not going to have the type of 
threats that will face us over the next two generations.
    And I guess I am being egotistical here, but I would second 
Jessica's seconding of what I said earlier, which is if we are 
not going to win the battle against the madrassa movement by 
competing with them in Pakistan, that is where we are 
surrendering this ball game.
    Mr. Turner. Mr. Chairman, if I might for just a moment.
    I just want to thank all of you for making those points, 
because I think so many times in our U.S. policy view, we are 
so narcissistic as to believe that all problems result from a 
relationship with our country, and that clearly, in this 
instance, there are other factors at play, ones that we need to 
pay attention to. So thank you.
    Mr. Tierney. Thank you. I just want to make mention with 
the great work of our staff here and a number of the members of 
this committee on both sides of the aisle, we were able to put 
a substantial amount of money into the budget this year and to 
enforce some education in Pakistan. The problem we are now 
going to have is making sure that is delivered in an effective 
way where it can be monitored and actually implemented without 
great waste or whatever. So we are moving in that direction. We 
still have some challenges on that, but it is a fight worth 
having, for sure.
    Mr. Isaacson, are you still squared away with us here for a 
while?
    Mr. Isaacson. I am actually hosting a lunch, which I 
wouldn't mind--a foreign policy lunch somewhere. So maybe 5 
minutes, if I could; 10, 10. Fine, fine. Sorry.
    Mr. Tierney. Ms. McCollum, you have 5 minutes, and then Mr. 
Shays has 5, because he is going to grill Mr. Isaacson.
    Ms. McCollum. Well, I appreciate your being able to stay, 
and I really found your July editorial in The Washington Post, 
where you argued that America needed a new creative solution to 
match the challenge of global terrorism very insightful. In the 
editorial you outline several strategies, including the 
creation of new public diplomacy organizations for the global 
age, and I strongly agree that we need an effective public 
diplomacy that is indispensable in America's toolbox in its 
fight against terrorism.
    During the cold war--and the cold War has been discussed--
the Voice of America, Radio Free Europe helped win the hearts 
and minds by giving invaluable information out to people 
regardless of their income and their occupation in those 
countries. U.S. policy was able to spread information about 
America, culture and values, which is democracy.
    The current crisis in Burma, though, to me, is more than 
ever demonstrating that a proven low-cost strategy like Voice 
of America radio is still essential. The BBC reported in recent 
days that less than 1 percent of the Burmese people have access 
to the Internet, and the government has blocked Internet 
traffic into and out of the country. Radio Netherlands is 
reporting that Burmese stores are sold out of shortwave radios 
because people want news and information, and that is the only 
way they can receive it. Laura Bush and Chairman Lantos both 
recently broadcast to the Burmese people on Voice of America.
    Now, I bring this up because I do agree with you we need to 
look at all the tools in the toolbox. Yet the Broadcasting 
Board of Governors, which oversees Voice of America with 
absolutely no transparency--no transparency--is rushing to 
close down radio transmitters all around the world, and I can 
supply you with the proof. You look shocked. I was shocked to 
find that out too. The BBG is silencing America's voice in a 
time when reaching the poor and oppressed populations in the 
world is even more important.
    Now, I have introduced a bill to try to get the Board of 
Governors' attention, and it is H.R. 3598. We need to do 
exactly what you were suggesting, Mr. Isaacson, make big 
investments in new public diplomacy efforts. But I believe we 
must renew our commitment to Voice of America Radio and other 
proven cost-effective strategies. Voice of America is only $10 
million in a $688 million budget. That is less than the 
inflationary increase of the GBG's administrative expenses in 
2008, and they are cutting it.
    I know you believe in using everything that is available 
out there and I want to make sure that we have your voice heard 
clear on Voice of America.
    Mr. Isaacson. Let me make it extremely clear. I love radio. 
I think it is an awesome and effective technology. I agree with 
Bob to my left, that the dismantling of the U.S. Information 
Agency was a very bad problem; and that is another thing that 
perhaps you can look at. I think the BBG has not risen to the 
task in the past of winning the hearts and minds battles, but I 
absolutely--I am a believer in a lot of old technology, 
including even print, believe it or not, but radio will be, for 
the next 100 years, an incredibly effective way to communicate. 
So let's not disparage radio.
    Mr. Lieber. No, I strongly agree with your point about VOA. 
VOA, Radio Free Europe, Radio Liberty, and the other radios are 
of immense importance. We ought not to be cutting services and 
broadcasts and budgets, but increasing them. They are an 
extremely important long-range investment.
    One other point in passing, some disagreement with Jessica 
about China. China has played a very negative role in Burma, in 
Darfur, and some other third-world environments, sustaining 
repressive regimes for reasons that are, at times economic, at 
times political. We don't control the situation in Burma. China 
is a country with huge influence and, alas, it appears, to the 
extent we can tell, not to have used the leverage it might have 
to improved things, rather than allow them to get worse.
    Mr. Tierney. Thank you very much.
    Mr. Shays.
    Mr. Shays. Thank you.
    Mr. Isaacson, thank you for waiting up. I would love to ask 
why isn't there a public debate about the threat and what we 
should do about it? And whose responsibility is it? Is it 
Congress, is it the White House, is it just that the press 
isn't into it?
    And then I am just going to say that it seemed to me, born 
in 1945, the 1950's were kind of like sorting it out. I mean, 
you know, I came from an area where everybody built these 
shelters that were really basements that nobody would want to 
be in unless they were crazy. So it seems to me that we didn't 
come to agreement on it until maybe when Kennedy tried to 
outmaneuver Nixon and be on the right side, so they were both 
in agreement, you know, we needed to confront and so on. So I 
would love to know that.
    I would love to know if Sputnik wasn't--did we start out 
having to be an economic military effort against the Soviet 
Union expansion, and then did Sputnik add a third element, 
education, or was education and technology always a part of it?
    And the last question is why are terrorists so 
unimaginable? And does that suggest that I fear them more than 
I should? In other words, I can tell you an umpteen number of 
ways to totally shut down this Government with very little 
amount of work, and yet they don't seem to figure it out.
    Mr. Isaacson. Well, let's not spread the word on the 
various ways.
    I do think that the entire cold war period--in this room, 
for example, whether you are talking about the Democratic or 
Republican chairs of Armed Services and everything else--had a 
great consensus and discussion of the long-term threat, and 
that is something that is rarer today. And I don't think it 
really--you may be right, but in my reading of the history, 
having written about the Truman administration into the 
Eisenhower administration, I think there was a serious 
understanding of how to deal or the need to deal with that 
threat.
    Mr. Shays. Well, let me quickly ask you this. If we hadn't 
gone into Iraq, is that when we kind of got sidestepped?
    Mr. Isaacson. This is what I was going to say. The reason 
for----
    Mr. Shays. I mean, in other words, with Republicans and 
Democrats working together.
    Mr. Isaacson. The polarization is what you are talking 
about, and the polarization is one reason we are not having a 
reasonable national debate, not just on the Hill. I left being 
in the media partly because I realized that our job in a new 
media age was to shout as much and be divisive enough as much 
as possible in order to get high ratings or readership. I think 
that the media has not played a unifying role nor a role of 
deepening some of these issues.
    You referred to that, I think, in your opening statement, 
but, to me, there are many people to blame for the fact that a 
reasonable, intelligent, non-partisan--I don't just mean 
bipartisan, I mean rising above partisanship--debate has not 
occurred. I think that talk radio and cable TV, having been a 
member of that part of the media for a while, is not helpful in 
that regard. And even though I love the Internet, I think the 
Internet encourages divisive debate and shouting more than it 
encourages the formation of consensus.
    So I think I will say we in the media or we in the 
recovering media--I am sort of a recovering journalist--are 
responsible. I think, you know, Congress, by the way it is set 
up, people playing to the base, districts that are more 
gerrymandering than they were when I was growing up, and you 
had a person who sat in that chair, Hale Boggs, who had to 
represent suburbs as well as inner city. That whole process has 
led to greater partisanship and less depth in the public 
debate, and I despair a bit, but I think there are many ways to 
overcome that.
    Mr. Shays. That should be your next book.
    Mr. Isaacson. Thank you, sir. Well, with my Benjamin 
Franklin book, that was the point of the Benjamin Franklin 
book.
    Mr. Shays. Yes, but do a modern one.
    Mr. Lieber.
    Mr. Lieber. If I may.
    Mr. Shays. Mr. Isaacson, you can leave.
    Mr. Isaacson. I will hear what Bob has to say and then I 
will dash to my lunch.
    Mr. Lieber. America has always had a tradition of robust, 
and even bitter and sometimes unfair, debate, if you think 
about debates going back to the late 18th century. Also, let's 
not forget that during the early cold war, the architect of the 
institutions and policies, Dean Atchison, was denounced in 1952 
by Richard Nixon, then running for vice president, who referred 
to Dean Atchison's College of Cowardly Communist Containment. 
There was plenty of Republican-Democratic animosity in the late 
1940's and early 1950's. Reagan was often denounced from the 
left; Jimmy Carter was denounced from the right, and so on.
    I do think, though, in response to your point, that the 
Iraq war has clearly, and I think dangerously, intensified the 
partisan anger and made it much harder to debate these things. 
I find that, since I take part in a lot of debates, that all 
too often these very important and difficult issues are framed 
in ways that are outlandish and hyperbolic. So Iraq has 
worsened that situation, but we need to remember that America's 
freedom and traditions have always involved a good deal of cut 
and thrust, even when there was a rough consensus.
    Ms. Mathews. I just would add that I think the degree of 
consensus in the cold war looks much bigger, in retrospect, 
than it was living through it. Much bigger. And while there is 
always value for another Walter Isaacson book, Bill Bradley has 
written, in his New American Story, of a lot of the issues that 
you and Walter just exchanged on, in particular, I think part 
of--and you know better than I how long it may take to change 
this, but the legacy of 20 years of redistricting is, at least 
on the Hill, has had a tremendous cost on our ability to act in 
a bipartisan way, because so few people represent really 
districts where they need to appeal to both sides.
    Mr. Shays. Come to my district.
    Ms. Mathews. But I also think Walter is right to draw 
attention to the effect of these new technologies in the 
communications world, because the smaller the niches, the less 
that you can reach across them, and people are living now in 
tinier and tinier niches, where they only reach stuff that they 
agree with, and this is a terrible cost for the country. So I 
think it is very important to focus on.
    Mr. Tierney. The Internet was an example that I had such 
great hopes of the Internet broadening out the debate and 
balancing it out, and it went just the other way; it went just 
to the respective corner and read just the blogs or sites that 
they thought reinforced their view and intensified the action 
back and forth.
    We obviously have to vote. Mr. Shays and I may be missing 
the first vote, but I want to ask one quick question of each of 
you. If you had to name one essential thing that this country 
should be doing differently than it currently is, what would 
that be?
    Ms. Mathews. Addressing non-proliferation in the ways that 
I described here, no question.
    Mr. Tierney. Dr. Lieber.
    Mr. Lieber. Taking profound steps about energy security in 
the way I referred to.
    Mr. Tierney. I can't thank you both enough, and Mr. 
Isaacson as well. It has been a very informative hearing. I 
think that we have all benefited extraordinarily from it, and I 
hope that we get the chance to have each of you back again to 
followup on this and for other reasons. You do a great service 
to us in your respective roles, and I know you are appreciated 
by a great many people. So thank you very, very much.
    Mr. Lieber. Thank you.
    Mr. Tierney. The meeting is adjourned.
    [Whereupon, at 12 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
